BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Petition for Writ of Certiorari in City of
Tahlequah, Oklahoma; Brandon Vick; Josh Girdner v.
Austin P. Bond, as Special Administrator of the Estate
of Dominic F. Rollice, deceased, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day service and e-mail to the following
parties listed below, this 27th day of May, 2021:
Robert M. Blakemore
Daniel E. Smolen
Smolen Roytman
701 South Cincinnati Avenue
Tulsa, OK 74119
(918) 585-2667
bob blakemore@ssrok.com
danielsmolen@ssrok.com
Counsel for Respondent
Paul D. Clement
Counsel of Record
Erin E. Murphy
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Keving M. Neylan, Jr.
Kirkland & Ellis LLP
601 Lexington Ave.
New York, NY 10022

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 27, 2021.

Am~lettMorg;n
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

